AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
 COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
           TUCSON POLICE DEPARTMENT
               CRIME LABORATORY
                TUCSON, ARIZONA




           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


          Audit Report GR-60-11-012
                  June 2011
  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
   TUCSON POLICE DEPARTMENT CRIME LABORATORY
                 TUCSON, ARIZONA

                            EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Tucson Police
Department Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System (SDIS) is used at the state level to serve as a state’s DNA
database and contains DNA profiles from local laboratories and state
offenders. The Local DNA Index System (LDIS) is used by local laboratories.

       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
OIG Audit Objectives

       Our audit generally covered the period from January 2009 to January
2011. The objectives of our audit were to determine if: (1) the Tucson
Police Department Crime Laboratory was in compliance with the NDIS
participation requirements; (2) the Laboratory was in compliance with the
Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS.

     Our review determined the following.

     •   We reviewed the Laboratory’s compliance with NDIS participation
         requirements and determined that the Laboratory retains personnel
         records for a period of 5 years instead of 10 years as mandated in
         the NDIS participation requirements. The Laboratory was in
         compliance with the remaining NDIS participation requirements we
         reviewed.

     •   We reviewed the Laboratory’s policies and procedures related to
         sample security, sample processing, and sample retention. In
         addition, we examined the Laboratory’s most recent internal and
         external audits. We found the Laboratory to be in compliance with
         the QAS areas we tested.

     •   We reviewed 100 of 1,319 forensic profiles the Laboratory had
         uploaded to NDIS as of January 5, 2011. Of the 100 forensic
         profiles sampled, we found that 93 of the sampled forensic profiles
         were complete, accurate, and allowable for inclusion in NDIS. We
         identified five forensic case profiles out of our sample that were not
         allowable for NDIS upload. The Laboratory identified two additional
         forensic profiles from our sample that it deemed inappropriate for
         upload to NDIS. The CODIS Administrator removed these seven
         profiles from NDIS before we completed fieldwork.

      We made one recommendation to address the Laboratory’s compliance
with standards governing CODIS activities, which are discussed in detail in
the Findings and Recommendations section of the report. Our audit
objectives, scope, and methodology are detailed in Appendix I of the report
and the audit criteria are detailed in Appendix II.




                                       ii
                                TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
   Background ..................................................................................... 1
   OIG Audit Objectives ........................................................................ 1
   Legal Foundation for CODIS ............................................................... 1
   CODIS Structure .............................................................................. 3
   Laboratory Information ..................................................................... 6
FINDINGS AND RECOMMENDATIONS................................................ 7
   I. Compliance with NDIS Participation Requirements ............................ 7
   II. Compliance with Quality Assurance Standards ............................... 10
   III. Suitability of Forensic DNA Profiles in CODIS Databases................. 13
APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 16
APPENDIX II: AUDIT CRITERIA ...................................................... 19
   NDIS Participation Requirements ...................................................... 19
   Quality Assurance Standards ........................................................... 20
   Office of the Inspector General Standards ......................................... 21
APPENDIX III: TUCSON POLICE DEPARTMENT
CRIME LABORATORY REPOSNE ....................................................... 23
APPENDIX IV: FEDERAL BUREAU OF INVESTIGATION
RESPONSE ...................................................................................... 24
APPENDIX V: ACTIONS NECESSARY TO CLOSE THE REPORT ........... 25
                                   INTRODUCTION


      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Tucson Police
Department Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 2 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

      We conducted our audit from January 2009 through January 2011.
The objectives of our audit were to determine if: (1) the Tucson Police
Department Crime Laboratory was in compliance with the National DNA
Index System (NDIS) participation requirements; (2) the Laboratory was in
compliance with the Quality Assurance Standards (QAS) issued by the FBI;
and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. Appendix I contains
a detailed description of our audit objectives, scope, and methodology; and
Appendix II contains the criteria used to conduct the audit.

Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 3

2
    DNA, or deoxyribonucleic acid is genetic material found in almost all living cells that
    contains encoded information necessary for building and maintaining life. Approximately
    99.9 percent of human DNA is the same for all people. The differences found in the
    remaining 0.1 percent allow scientists to develop a unique set of DNA identification
    characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
         3
           42 U.S.C.A. § 14132 (2006).
Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice
agency – or the U.S. Department of Defense – in accordance with QAS
issued by the FBI. The DNA information in the index is authorized to be
disclosed only: (1) to criminal justice agencies for law enforcement
identification purposes; (2) in judicial proceedings, if otherwise admissible
pursuant to applicable statutes or rules; (3) for criminal defense purposes,
to a defendant who shall have access to samples and analyses performed in
connection with the case in which the defendant is charged; or (4) if
personally identifiable information (PII) is removed for a population statistics
database, for identification research and protocol development purposes, or
for quality control purposes.




                                       2
CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS


                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




National DNA Index System

                                                  3
       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of
laboratory-to-laboratory contacts. NDIS contains the following eight
searchable indices:

      •   Convicted Offender Index contains profiles generated from persons
          convicted of qualifying offenses. 4

      •   Arrestee Index is comprised of profiles developed from persons who
          have been arrested, indicted, or charged in an information with a
          crime.

      •   Legal Index consists of profiles that are produced from DNA
          samples collected from persons under other applicable legal
          authorities. 5

      •   Detainee Index contains profiles from non-U.S. persons detained
          under the authority of the U.S. and required by law to provide a
          DNA sample for analysis and entry into NDIS.

      •   Forensic Index profiles originate from, and are associated with,
          evidence found at crime scenes.

      •   Missing Person Index contains known DNA profiles of missing
          persons and deduced missing persons.

      •   Unidentified Human (Remains) Index holds profiles from
          unidentified living individuals and the remains of unidentified
          deceased individuals. 6

      •   Relatives of Missing Person Index is comprised of DNA profiles
          generated from the biological relatives of individuals reported
          missing.



      4
        The phrase “qualifying offenses” refers to local, state, or federal crimes that
 require a person to provide a DNA sample in accordance with applicable laws.
      5
        An example of a Legal Index profile is one from a person found not guilty by
 reason of insanity who is required by the relevant state law to provide a DNA sample.
      6
         An example of an Unidentified Human (Remains) Index profile from a living person
 is a profile from a child or other individual, who cannot or refuses to identify themselves.

                                             4
       Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes and (2)
identify missing and unidentified persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU,LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

     CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
                                       5
the utility of CODIS relies upon the completeness, accuracy, and quantity of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS. 7 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

         The Tucson Police Department Crime Laboratory is a Local DNA
Index System Laboratory (LDIS). The Laboratory began using DNA in the
processing of criminal case evidence in 1994. The Laboratory currently
analyzes forensic samples and has also outsourced the analysis of forensic
samples since 2007. The Laboratory began uploading profiles to SDIS in
2000. The Tucson Police Department Crime Laboratory has been accredited
by the American Society of Crime Laboratory Directors/Laboratory
Accreditation (ASCLD-LAB) since 1993. The Laboratory is due for
accreditation renewal in 2013.




7
    A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                                6
              FINDINGS AND RECOMMENDATIONS

      I. Compliance with NDIS Participation Requirements

      The OIG reviewed the Laboratory’s compliance with NDIS
      participation requirements and we determined that the
      Laboratory’s policy for personnel records retention is 5 years
      instead of the required 10 years. We found the Laboratory to be
      in compliance with all other NDIS procedures reviewed including
      adequate Laboratory security, personnel are aware of NDIS
      Procedures, CODIS users have completed the annual training
      and submitted all necessary paperwork, and the Laboratory has
      handled NDIS matches in accordance with requirements.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory did not retain personnel records for a
period of 10 years as required by the NDIS participation requirements. The
results of our audit are described in more detail below.

      Personnel Records

      NDIS participation requirements mandate that a participating
Laboratory maintain personnel records, including proficiency testing records
for a minimum of 10 years. We analyzed the Laboratory’s policy regarding
the length of time for which the Laboratory maintains personnel records and
determined that the Laboratory retains the personnel records for a period of
5 years. Laboratory officials were unaware of the policy that stipulated the
retention of personnel records for a period of 10 years.

       We found that the Laboratory complied with the other NDIS
participation requirements we reviewed, as described below.

  •   NDIS requires that CODIS be physically and electronically safeguarded
      from unauthorized use and only be accessible to limited approved

                                     7
    personnel. Based on our tour of the Laboratory and discussions with
    the Laboratory personnel, we determined that access to CODIS is only
    given to approved CODIS users. Each CODIS user is given a unique
    user ID and password and the CODIS terminal is set to lock after 10
    minutes of inactivity. In addition, we determined that the security
    controls for the entrance and exit points of the laboratory are
    controlled using an electronic ID card which restricts employee’s
    access to their assigned areas of the building. The laboratory makes
    weekly backups and stores them in a locked off-site container on a
    monthly basis.

•   NDIS operational procedures require that appropriate personnel are
    provided with the NDIS procedures manual and that all CODIS users
    are familiar with the procedures, know where they are located, and
    can readily access them when needed. We determined that
    appropriate personnel were provided with the manual and that
    appropriate controls were in place to ensure that staff were familiar
    with the manual. We consulted with two of the Laboratory’s CODIS
    users and determined that both users knew about the procedures and
    both users were readily able to locate them upon our request.

•   CODIS users are required, on an annual basis, to successfully
    complete training administered by the FBI. We verified with the FBI
    that all current CODIS users have completed the training within the
    last year.

•   Laboratories who participate in CODIS are required by the FBI to
    submit appropriate documentation regarding each of its CODIS users.
    We verified that the Laboratory submitted all required information for
    each CODIS user.

•   When a match is identified in CODIS, the NDIS procedures require that
    a match confirmation process is followed. We judgmentally selected a
    sample of eight NDIS matches and determined that the Laboratory
    was timely in match confirmation requests, match confirmations,
    confirmation dispositions, and the notification of forensic matches to
    investigators. The Laboratory’s match criteria was followed in all eight
    match confirmations. We did not note any discrepancies concerning
    NDIS Matches.




                                    8
Conclusion

      We found that the Laboratory was not compliant with the NDIS
personnel records retention policy which requires participating laboratories
to retain personnel records for a period of 10 years.

Recommendations

      We recommend that the FBI:

1.    Require the Laboratory to revise its personnel records retention policy
      to reflect the 10 year requirement of the NDIS participation
      requirements.




                                      9
       II. Compliance with Quality Assurance Standards

       We reviewed the Laboratory’s policies and procedures related to
       DNA sample processing, sample security, and sample retention.
       In addition, we examined the Laboratory’s most recent internal
       and external audits. For the items tested in our audit, we found
       the Laboratory to be in compliance with the Quality Assurance
       Standards.

       During our audit, we considered the Forensic Quality Assurance
Standards (QAS) issued by the FBI. 8 These standards describe the quality
assurance requirements that the Laboratory must follow to ensure the
quality and integrity of the data it produces. We also assessed the two most
recent QAS reviews that the laboratory underwent. 9 The QAS we reviewed
are listed in Appendix II.

Results of the OIG Audit

   We found that the Laboratory complied with the Forensic QAS tested.
Specifically, through observation and discussion with laboratory
management for those items tested, we determined that the laboratory has
adequate building and Laboratory security, undergoes stringent annual
audits, and has acceptable Quality Assurance Policies. These results are
described in more detail below.

   •   The QAS requires laboratories to undergo an annual review, including
       an external audit every 2 years. QAS Standard 15.1 also states that
       the time limit between audits shall not exceed 18 months and be no
       less than 6 months. We determined that the Laboratory complied with
       this requirement by undergoing an internal or an external audit during
       each year of our review period.

   •   We obtained the most recent external and internal QAS review reports
       for the Laboratory. We determined that for both reviews, all instances

       8
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective July 1, 2009.
       9
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                             10
    of non-compliance were reported, the FBI audit document was used,
    all auditors had completed the FBI’s reviewer training course, and the
    Laboratory submitted their most recent external audit report to the
    NDIS custodian within 30 days.

•   To help ensure that the reviewers who performed the Laboratory’s
    most recent external review were independent when they performed
    the review, we requested and received a completed auditor
    independence statement from each reviewer who participated in the
    Laboratory’s last external review. Each external reviewer attested that
    they were independent at the time of the external review.

•   We determined that access to the laboratory is controlled and secured
    in order to prevent access by unauthorized personnel. The Laboratory
    has secure entrances that feature security guards, metal detectors,
    and requires ID cards for the public entrance to prevent access by
    unauthorized personnel. Areas within the Laboratory are also
    adequately controlled with scan cards that give each employee limited
    access to relevant areas of the building. Overall security at the
    Laboratory appears to be in compliance with the QAS.

•   The integrity of physical evidence and forensic samples is maintained
    by the Laboratory in accordance with the QAS. Specifically, when
    evidence is first collected, it is given a unique indentifying number and
    entered into the department’s evidence tracking system. The chain of
    custody for evidence is tracked in the laboratory’s information system.
    Evidence and forensic samples are properly stored from the point of
    receipt through processing.

•   To ensure the accuracy of data loaded into the database, each case
    undergoes a laboratory technical review and a secondary review prior
    to being uploaded SDIS. We did not note any deficiencies with regard
    to these processes.

•   The QAS requires that amplified DNA must be generated and
    processed at a separate time or location than the evidence
    examination, DNA extraction, and PCR setup areas. We determined
    that for known and unknown samples, the Laboratory performs the
    PCR setup, extraction, and examination in separate rooms or times
    within the Laboratory. The amplification of known and unknown
    samples are sometimes done simultaneously but in a separately
    dedicated location. These methods are compliant with the QAS.

•   The Laboratory retains the cuttings of the original evidence samples
    after analysis and maintains the samples for at least 3 months. All
                                    11
       evidence is kept in a secure off-site evidence building after analysis.
       Access to the evidence area is given to evidence handling staff and the
       employees who are relevant to the corresponding case. The DNA
       samples are stored in refrigerators and freezers in order to preserve
       their integrity.

   •   The Laboratory contracted out the analysis of forensic samples to two
       vendors. We determined that both vendors underwent and provided
       evidence of the required QAS reviews, site visits, and the vendor
       Laboratory’s maintained the proper accreditation. The vendor
       laboratories have complied with all contract requirements. We did not
       note any deficiencies in regards to these processes.

   •   The QAS requires that the Laboratory review and evaluate the results
       of 100 percent of all profiles that are contracted out for analysis. We
       determined that the Laboratory reviews and evaluates the results for
       100 percent of outsourced profiles.

   •   After reviewing documentation concerning the Laboratory’s site visits
       of vendor Laboratory’s, we determined that there were no issues of
       non-compliance noted. We did not take any exception to the site visits
       as they are compliant with the QAS.

Conclusion

      Based on the review of internal and external audits, as well as
Laboratory and forensic sample security, our audit did not reveal deficiencies
with regard to the Laboratory’s compliance with the QAS we reviewed. We
made no recommendations concerning our review of Quality Assurance
Standards.




                                      12
      III. Suitability of Forensic DNA Profiles in CODIS Databases

       We reviewed 100 of 1,319 forensic profiles the Laboratory had
       uploaded to NDIS as of January 5, 2011. Of the 100 forensic
       profiles sampled, we found that 93 of the sampled forensic
       profiles were complete, accurate, and allowable for inclusion in
       NDIS. We identified five forensic case profiles out of our sample
       that were not allowable for NDIS upload. The Laboratory
       identified two additional forensic profiles from our sample it
       deemed inappropriate for upload to NDIS. The CODIS
       Administrator removed all seven of these profiles from NDIS
       before we completed fieldwork.

       We reviewed a sample of the Laboratory’s Forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 10 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results, and that the values at each locus match those
identified during analysis. 11 Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit


       10
           When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample
is taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
       11
            A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                               13
       We selected a sample of 100 profiles out of the 1,319 forensic profiles
the Laboratory had uploaded to NDIS as of January 5, 2011. Of the 100
forensic profiles sampled, we found that 5 were unallowable for upload to
NDIS. The Laboratory identified two additional forensic profiles from our
sample that it deemed inappropriate for upload to NDIS. The remaining
profiles sampled were complete, accurate, and allowable for inclusion in
NDIS. The specific exceptions are explained in more detail below.

OIG Sample No. CA-01

        The DNA Profile was derived from the swabbing of an empty beer can
found in a parking lot where a murder took place. According to the case
files, the crime scene was very large and the victim was moved. Based on
the information given, we could not sufficiently connect the beer can to the
crime and the profile is therefore unallowable in accordance with the FBI
flowchart.

OIG Sample No. CA-12

       This specimen was taken from the swabbing of a beer can found near
an apartment complex where a murder took place. Based on the facts which
were presented in the case file, it was not clear whether the beer can was
linked to the crime. In accordance with the FBI flowchart, this sample is not
valid for inclusion into NDIS.

OIG Sample No. CA-19

      The DNA specimen came from the swabbing of a beer can found in an
area where a homicide took place. There was not enough information
present that could sufficiently link the beer can to the crime scene;
therefore, it is not valid for inclusion into NDIS.


OIG Sample No. CA-53

      This specimen came from a DNA swabbing of a Cowboy Hat that was
found at the crime scene. According to the case file, detectives later
determined that this hat was from an unrelated “secondary crime scene”
that occurred at the same location. The Laboratory deleted the profile from
NDIS prior to start of the audit.

OIG Sample No. CA-57

      This specimen was derived from the sperm fraction of a rape kit. The
victim had a recent consensual sex partner for whom the crime Laboratory
                                      14
did not obtain an elimination standard. The Laboratory deleted this
specimen from NDIS before the auditors arrived on site.

OIG Sample No. CA-79

      This specimen was taken from a cigarette butt located near an area
where a murder took place. There was not enough information present in
the case file to sufficiently link the cigarette butt to the crime scene.
Therefore, this sample is not allowable for inclusion into NDIS.

OIG Sample No. CA-93

      This specimen came from a “Malt Liquor” can found in the area where
a murder took place. Based on the case file and supporting information, the
Laboratory did not have sufficient information to link the can to the crime;
therefore it is not allowable for inclusion to NDIS.

     After consulting with the Laboratory, we determined that the
Laboratory agreed with our findings related to the unallowable profiles.

Conclusion

      We identified a total of five profiles that were unallowable for inclusion
in NDIS. In addition, the Laboratory identified two profiles in our sample
which it deemed inappropriate for NDIS. Since the Laboratory deleted all
seven of the unallowable profiles while we were on site, we made no
recommendations concerning our review of the Forensic DNA profiles.




                                       15
                                                                         APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from January 2009 through
January 2011. The objectives of the audit were to determine if the: (1)
Laboratory was in compliance with the NDIS participation requirements; (2)
Laboratory was in compliance with the Quality Assurance Standards (QAS)
issued by the FBI; and (3) Laboratory’s forensic DNA profiles in CODIS
databases were complete, accurate, and allowable for inclusion in NDIS. To
accomplish the objectives of the audit, we:

   •   Examined internal and external Laboratory QAS review reports and
       supporting documentation for corrective action taken, if any, to
       determine whether: (a) the Laboratory complied with the QAS, (b)
       repeat findings were identified, and (c) recommendations were
       adequately resolved.12

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program, organization and management, personnel
       qualifications, facilities, evidence control, validation of methods and
       procedures, analytical procedures, calibration and maintenance of
       instruments and equipment, proficiency testing of analysts, corrective
       action for discrepancies and errors, review of case files, reports, safety,
       and previous audits. The QAS require that internal and external reviews
       be performed by personnel who have successfully completed the FBI’s
       training course for conducting such reviews.
       12
           The QAS require that laboratories undergo annual audits, which every other year,
must be performed by an external agency that performs DNA identification analysis and is
independent of the laboratory being reviewed. The QAS does not require these audits to be
performed in accordance with the Government Auditing Standards (GAS) and they are not
performed by the Department of Justice Office of the Inspector General. Therefore, we
refer to the QAS audits as either internal or external laboratory reviews, as applicable, to
avoid confusion with our audits that are conducted in accordance with GAS.

                                            16
       As permitted by GAS 7.42 (2007 revision), we generally relied on the
       results of the Laboratory’s external laboratory review to determine if
       the Laboratory complied with the QAS. 13 In order to rely on the work
       of non-auditors, GAS requires that we perform procedures to obtain
       sufficient evidence that the work can be relied upon. Therefore, we:
       (1) obtained evidence concerning the qualifications and independence
       of the individuals who conducted the review and (2) determined that
       the scope, quality, and timing of the audit work performed was
       adequate for reliance in the context of the current audit objectives by
       reviewing the evaluation procedure guide and resultant findings to
       understand the methods and significant assumptions used by the
       individuals conducting the reviews. Based on this work, we
       determined that we could rely on the results of the Laboratory’s
       external laboratory review.

   •   Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

   •   Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing,
       analyzing, and storage of forensic evidence and convicted offender DNA
       samples.

   •   Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, expunging DNA
       profiles from NDIS, and resolving matches among DNA profiles in NDIS.

   •   Reviewed supporting documentation for 8 of 83 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of NDIS matches as of
       January 11, 2011. The sample was judgmentally selected to include
       both case-to-case and case-to-offender matches. This non-statistical
       sample does not allow projection of the test results to all matches.

   •   Reviewed supporting documentation to determine whether the
       Laboratory provided adequate vendor oversight.


       13
           We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.

                                             17
  •   Reviewed the case files for selected forensic DNA profiles to determine if
      the profiles were developed in accordance with the Forensic QAS and
      were complete, accurate, and allowable for inclusion in NDIS.

      Working in conjunction with the contractor used by the FBI to maintain
      NDIS and the CODIS software, we obtained an electronic file identifying
      the 1,319 (STR) forensic profiles the Laboratory had uploaded to NDIS
      as of January 5, 2011. We limited our review to a sample of 100
      profiles. This sample size was determined judgmentally because
      preliminary audit work determined that risk was not unacceptably high.

  •   Using the judgmentally-determined sample size, we randomly selected a
      representative sample of labels associated with specific profiles in our
      universe to reduce the effect of any patterns in the list of profiles
      provided to us. However, since the sample size was judgmentally
      determined, the results obtained from testing this limited sample of
      profiles may not be projected to the universe of profiles from which the
      sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                      18
                                                                      APPENDIX II

                               AUDIT CRITERIA


      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements.

   •   DNA Data Acceptance Standards
   •   DNA Data Accepted at NDIS
   •   Quality Assurance Standards (QAS) Reviews
   •   NDIS DNA Autosearches
   •   Confirm an Interstate Candidate Match
   •   General Responsibilities
   •   Initiate and Maintain a Laboratory’s Participation in NDIS
   •   Security Requirements
   •   CODIS Users
   •   CODIS Administrator Responsibilities
   •   Access to, and Disclosure of, DNA Records and Samples
   •   Upload of DNA Records
   •   Expunge a DNA Record
   •   The FBI Flowchart: A Guide to Determining What is Allowable in the
       Forensic Index at NDIS 14




       14
         The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
 from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
 CODIS Administrator’s Handbook and has been provided to laboratories in referendums
 such as CODIS conferences.
                                           19
Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009 (Offender
QAS). The Forensic QAS and the Offender QAS describe the quality
assurance requirements that the Laboratory should follow to ensure the
quality and integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS

   •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
       have a facility that is designed to ensure the integrity of the analyses
       and the evidence.

   •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence. Where possible, the laboratory shall retain or return
       a portion of the evidence sample or extract.

   •   Sample Control (Offender QAS 7.1): The laboratory shall have and
       follow a documented sample inventory control system to ensure the
       integrity of database and known samples.

   •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
       laboratory shall monitor the analytical procedures using [appropriate]
       controls and standards.

   •   Review (Forensic QAS 12.1): The laboratory shall conduct
       administrative and technical reviews of all case files and reports to
       ensure conclusions and supporting data are reasonable and within the
       constraints of scientific knowledge.

       (Offender QAS Standard 12.1): The laboratory shall have and follow
       written procedures for reviewing DNA records and DNA database
       information, including the resolution of database matches.

   •   [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
       laboratory shall be audited annually in accordance with [the QAS]. The
                                       20
      annual audits shall occur every calendar year and shall be at least 6
      months and no more than 18 months apart.
      At least once every 2 years, an external audit shall be conducted by an
      audit team comprised of qualified auditors from a second agency(ies)
      and having at least one team member who is or has been previously
      qualified in the laboratory’s current DNA technologies and platform.

  •   Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
      laboratory performing forensic and database DNA analysis shall comply
      with these Standards and the accreditation requirements of federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received
      through the performance of the technical review of DNA data from a
      vendor laboratory.

      Offender QAS Standard 17.4: An NDIS participating laboratory shall
      have, follow and document appropriate quality assurance procedures to
      verify the integrity of the data received from the vendor laboratory
      including, but not limited to, the following: Random reanalysis of
      database, known or casework reference samples; Inclusion of QC
      samples; Performance of an on-site visit by an NDIS participating
      laboratory or multi-laboratory system outsourcing DNA sample(s) to a
      vendor laboratory or accepting ownership of DNA data from a vendor
      laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •   Completeness of DNA Profiles: A profile must include each value
      returned at each locus for which the analyst obtained results. Our
      rationale for this standard is that the probability of a false match
      among DNA profiles is reduced as the number of loci included in a
      profile increases. A false match would require the unnecessary use of
      laboratory resources to refute the match.


  •   Accuracy of DNA Profiles: The values at each locus of a profile must
      match those identified during analysis. Our rationale for this standard
      is that inaccurate profiles may: (1) preclude DNA profiles from being
      matched and, therefore, the potential to link convicted offenders to a

                                      21
    crime or to link previously unrelated crimes to each other may be lost;
    or (2) result in a false match that would require the unnecessary use
    of laboratory resources to refute the match.


•   Timely Notification of Law Enforcement When DNA Profile Matches
    Occur in NDIS: Laboratories should notify law enforcement personnel
    of NDIS matches within 2 weeks of the match confirmation date,
    unless there are extenuating circumstances. Our rationale for this
    standard is that untimely notification of law enforcement personnel
    may result in the suspected perpetrator committing additional, and
    possibly more egregious, crimes if the individual is not deceased or
    already incarcerated for the commission of other crimes.




                                   22
                                                                                                       APPENDIX III




              Ready to Protect, Proud L Serve
                                      a
                                /t'!: 510-79/-4441
                               jiu.- 5]0-791-549/
                               1I"...'.d./licsoII.a:.lwpofice'

                             I 170 S, SlOne " ,'enll/'
                               nK$on, J/n:ona 85701-/9/7




June 23, 2011


Mr. David M. Sheeren
U.S. Department of Justice
Office of the Inspector General
Denver Regional Audit Office
1120 Lincoln, Suite 1500
Denver, CO 80203



Dear Mr. Sheeren,


This letter is in response to the Draft Audit Report received June 3, 2011 from the US Department of
Justice, Office of the Inspector General, Audit Division.


A Tucson Police Department Crime Lab policy requ iring retention of personnel records for 5 years
instead of the NOIS required 10 years was a finding of the DIG audit held this past January.


We have changed our procedures to retain personnel records for 10 years. Please see the attached
copy of our manual documenting this procedure.




Crime laboratory Superintendent


Enclosure


Cc: Pau la Pagano, FBI
    Nora Rankin, local COOlS Administrator




                                                                 23
                                                                                              APPENDIX IV





                                                    U.S. DcpartmcDf or Justicc


                                                    Federal Bureau of Investigation


                                                    WuhinglOll. D_ C 2053HlQOI

                                                    June 22. 2011



David M. Shecren
Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector Gencral
21120 Lincoln Street. Suite 1500
Denver, CD 80203


Dear Mr. Sheeren:
              Your memorandum to Director Mueller forwarding the draft audit report for the
Tucson Police Department Crime Laboratory, Tueson, Arizona (Laboratory), has been referred to
me for response.

              Your draft audit report conlained one reconunendation relating to the Laboratory's
compliance with the FBI's Memorandum of Understanding and Quality Assurance Standards/or
DNA Testing Laboratories. The COOlS Unit has reviewed your draft audit report and offers the
following comment.
               With respect to Recommendation one relating to the Laboratory's retention of
personnel records, the CODIS Unit has reviewed the Laboratory's corrective action and its fonnal
written procedures. The procedures as written appear to be sufficient in enabling the Laboratory
to comply with the applicable NDIS Procedure regarding the retention of records. A copy of the
procedure is enclosed for your review (DNA Quality Assumnce Manual Sections 4.8 - 4.11 and
14.16). The CODIS Unit supports closure of this recommendation.
                Thank you for sharing the draft audit report with us. If you have any questions.
please feci free to contact Jennifer Luttman, Chief of the CaDIS Unit, at (703) 632-8315.

                                                     Sincerely,

                                                     ~~.~-
                                                     Alice R. Isenberg,\.Ph.O.
                                                     Section Chief
                                                                                       0
                                                     Biometrics Analysis Section
                                                     FBI Labomtory




                                                  24
                                                            APPENDIX V

  OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
         ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE REPORT

      The OIG provided a draft of this audit report to both the Tucson Police
Department Crime Laboratory and the FBI. The Tucson Police Department
Crime Laboratory’s response is incorporated in Appendix III of this final
report. The FBI’s response is incorporated in Appendix IV of this report. The
following provides the OIG analysis of the responses and summary of actions
taken to close the report.

Summary of Actions Taken to Close the Report:

1. Closed. We recommended that the FBI require the Laboratory to revise
its personnel records retention policy to reflect the 10 year requirement of
the NDIS participation requirements. Included with the Laboratory’s
response, we received sufficient evidence that the Laboratory has changed
its personnel records retention policy to reflect the necessary 10 year
requirement. The recommendation is now closed based on the
documentation in which the Laboratory has provided to the OIG and the FBI
displaying the change in policy.




                                     25
